No. 20-1501

IN THE
Supreme Court of the United States

ROMAN CATHOLIC DIOCESE OF ALBANY, ET AL.,

Petitioners,
Vv.
SHIRIN EMAMI, ACTING SUPERINTENDENT, NEW YORK
STATE DEPARTMENT OF FINANCIAL SERVICES, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I hereby certify that the Reply
Brief for Petitioners in Roman Catholic Diocese of Albany v. Emami, No. 20-1501,
complies with the word limitations, as it contains 2,998 words.

I declare under penalty of perjury that the foregoing ig rue gnd correct.

Date: September 3, 2021

 
